                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

    Case Number: A-04010002                                                                   Page 1 of 1      11
         It was alleged the subject's recent NSF proposal' listed a publication h his Biosketch that
         suggested he was a co-author on the publication when he was not. Our initial review showed the
         subject's Biosketch contained a publication2presented such that it suggested he was a co-author,
         which he was not. Further, we noted that the actual first author for the publication had been left
         off the citation. Finally, we found that two of the subject's earlier declined NSF proposals?
         contained the same publication in his Biosketches presented in exactly the same way.

         We wrote to the subject who responded that he had made a mistake. He said that he had cut
         and pasted the citation for the publication from the first author's web page, which did not
         contain the first author's kame, a fact that he did not notice when he did it. With his
         subsequent NSF proposals, he incorporated the same Biosketch without review. Further, he
         explained that he included the publication in his Biosketch to show he had done research
         work associated with the publication. He said he had not intended to suggest he was a
         co-author. He sent an email to his mentor and the first author explaining the situation.

         We determined that the subject's actions were a departure from accepted practices of the
         scientific community, but not a significant departure. We wrote to the subject advising him
         to be more diligent in the future in his review of what he included in his proposals.
         Accordingly, we closed this case and no further action will be taken.




                                   entitled "               ,                 "was submitted by the subject,

~
